No. ______
In the

Supreme Court of the United States
__________________

KIMBERLY D. COLLINS,
Petitioner,
v.
GWENDOLYN THORNTON, PH.D.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

RICHARD F. HAWKINS, III
Counsel of Record
THE HAWKINS LAW FIRM, PC
2222 Monument Ave.
Richmond, VA 23220
(804) 308-3040 (telephone)
(804) 308-3132 (fax)
rhawkins@thehawkinslawfirm.net
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Some five years ago, in Chen v. Mayor & City
Council of Baltimore, Md., 135 S. Ct. 475 (2014)
(mem.), this Court recognized at least a 7-1 circuit split
-- with the Fourth Circuit standing as the lone outlying
circuit -- and granted certiorari on the question of
whether a district court has discretion under Federal
Rule of Civil Procedure 4(m) to extend the time for
service of process absent good cause. The Court was
unable to resolve this split, however, because the selfrepresented petitioner missed a briefing deadline. Id.
135 S. Ct. 939 (2015). Since that time, the split (which
is actually a 9-1 split) has not only remained in place,
but the Fourth Circuit, despite its chances, has refused
to remove its outlier status.
The questions presented are thus:
1. Whether, under Federal Rule of Civil Procedure
4(m), a district court has discretion to extend the
time for service of process absent a showing of
good cause, as the Second, Third, Fifth, Seventh,
Eighth, Ninth, Tenth, Eleventh, and D.C.
Circuits have held, or whether the district court
lacks such discretion, as the Fourth Circuit has
held.
2. Whether such discretion under Rule 4(m) is
constrained where, as here, the statute of
limitations will bar any re-filed claim, such that
a district court may only dismiss a complaint for
untimely service where there is a clear record of
delay or contumacious conduct by the plaintiff.

ii
PARTIES TO THE PROCEEDINGS
Petitioner, plaintiff-appellant below, is Kimberly D.
Collins.
Respondent, defendant-appellee
Gwendolyn Thornton, Ph.D.

below,

is

STATEMENT OF RELATED PROCEEDINGS
• Collins v. Thornton, No. 18-1995 (4th Cir.)
(opinion issued and judgment entered August
13, 2018; petition for panel rehearing and
rehearing en banc denied September 16, 2019;
mandate issued September 24, 2019).
• Collins v. Thornton, 3:18cv210-HEH (E.D. Va.)
(order denying motion for extension of time to
complete service and dismissing case entered
June 27, 2018; order denying Rule 59 motion to
alter judgment entered July 27, 2018).
There are no additional proceedings in any court
that are directly related to this case.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULE OF CIVIL PROCEDURE INVOLVED . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . 5
I.

Background Regarding Federal Rule of Civil
Procedure 4(m) (Formerly Rule 4(j)). . . . . . . . 5
A. The Current Rule . . . . . . . . . . . . . . . . . . . . 5
B. The Pre-1993 Rule (Rule 4(j)) . . . . . . . . . . 6
C. The Purpose of the 1993 Amendments . . . 7
D. Mendez v. Elliot . . . . . . . . . . . . . . . . . . . . . 8

II.

Factual and Procedural Background . . . . . . . 9
A. Collins’ Files Her Complaint And Files A
Pre-Deadline Motion To Extend The Time
To Complete Service Of Process . . . . . . . . 9

iv
B. The District Court Denies Collins’
Extension Motion And Then, Without Any
Prior Notice, Sua Sponte Dismisses The
Complaint. . . . . . . . . . . . . . . . . . . . . . . . . 13
C. The District Court Denies Collins’ Rule 59
Motion For Reconsideration And, In
Doing So, Expressly Invokes The
Precedential And Binding Effect Of The
Fourth Circuit’s Decision in Mendez v.
Elliot. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
D. At The Exact Same Time That The
District Court Issues Its Decision In The
Eastern District Of Virginia, A Sister
Court Issues A Diametrically Opposed
Decision In The Western District Of
Virginia. . . . . . . . . . . . . . . . . . . . . . . . . . . 17
E. The Fourth Circuit Affirms The District
Court’s Dismissal, But Fails To Discuss,
Much Less Consider, The Factors
Applicable To A Discretionary Extension
Under Rule 4(m). . . . . . . . . . . . . . . . . . . . 18
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . 20
I.

This Court Should Grant Certiorari To
Resolve The Lopsided But Well-Entrenched
9-1 Circuit Split That Exists As To Whether
Fed.R.Civ.P. 4(m) Allows A District Court To
Extend The Time To Complete Service In
The Absence Of Good Cause. . . . . . . . . . . . . 20

v
II.

This Court Should Grant Certiorari To
Identify The Appropriate Guidelines For
District Courts To Follow When They
Exercise Their Discretion Under Rule 4(m)
To Grant Or Deny An Extension Of Time To
Complete Service In The Absence Of Good
Cause; In Doing So, It Should Adopt The
Rule Of Law Adopted By The Fifth Circuit In
Millan v. USAA Gen. Indem. Co. . . . . . . . . . 27

III.

This Case Is An Excellent Vehicle To Resolve
The Questions Presented. . . . . . . . . . . . . . . . 31

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Fourth
Circuit
(August 13, 2019) . . . . . . . . . . . . . App. 1
Appendix B Memorandum Order in the United
States District Court for the Eastern
District of Virginia, Richmond Division
(July 27, 2018) . . . . . . . . . . . . . . App. 10
Appendix C Memorandum Order in the United
States District Court for the Eastern
District of Virginia, Richmond Division
(June 27, 2018) . . . . . . . . . . . . . . App. 19

vi
Appendix D Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Fourth
Circuit
(September 16, 2019) . . . . . . . . . App. 23

vii
TABLE OF AUTHORITIES
CASES
Adams v. Allied Signal Gen. Aviation Avionics,
74 F.3d 882 (8th Cir. 1995). . . . . . . . . . . . . . . . . 21
Addison v. Amica Mut. Ins. Co.,
2019 WL 2191795 (D.S.C. May 21, 2019) . . . 9, 25
Boley v. Kaymark,
123 F.3d 756 (3d Cir. 1997) . . . . . . . . . . . . . . . . 12
Broome v. Iron Tiger Logistics, Inc.,
2018 WL 3978998 (W.D. Va. Aug. 20,
2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Chen v. Mayor & City Council of Baltimore, Md.,
135 S. Ct. 475 (2014). . . . . . . . . . . . . . . . . . passim
Corbett v. ManorCare, Inc.,
224 F. App’x 572 (9th Cir. 2007) . . . . . . . . . . . . 22
De Tie v. Orange Cty,
152 F.3d 1109 (9th Cir. 1998). . . . . . . . . . . . . . . 21
Escalante v. Tobar Construction, Inc.,
2019 WL 109369
(D. Md. Jan. 3, 2019) . . . . . . . . . . . . . 8, 22, 24, 25
Espinoza v. United States,
52 F.3d 838 (10th Cir. 1995). . . . . . . . . . . . . . . . 21
Giacomo-Tano v. Levine,
1999 WL 976481 (4 th Cir. Oct. 27, 1999) . . . 23, 25
Hanna v. Plumer,
380 U.S. 460 (1965). . . . . . . . . . . . . . . . . . . . . . . 26

viii
Hansan v. Fairfax Cty. Sch. Bd.,
405 F. Appx 793 (4th Cir. 2010) . . . . . . . . . . . . . 23
Harris v. South Charlotte Pre-Owned Auto
Warehouse, LLC,
2015 WL 1893839 (W.D.N.C. April 27, 2015) . . 32
Henderson v. United States,
517 U.S. 654 (1996). . . . . . . . . . . . . . . . 2, 7, 23, 25
Horenkamp v. Van Winkle & Co.,
402 F.3d 1129 (11th Cir. 2005). . . . . . . . . . . 21, 22
Lane v. Lucent Techs., Inc.,
388 F.Supp.2d 590 (M.D.N.C.2005) . . . . . . . . . . 25
Mann v. Am. Airlines,
324 F.3d 1088 (9th Cir. 2003). . . . . . . . . . . . . . . 21
Mann v. Castiel,
681 F.3d 368 (D.C. Cir. 2012). . . . . . . . . . . . . . . 20
Martin v. S.C. Dep’t of Corrs.,
2019 WL 2124957 (D.S.C. Apr. 23, 2019) . . . 9, 25
Mason v. Lewis Contracting Services, LLC,
2019 WL 2395492 (W.D.Va. June 6, 2019) . . . . 25
Mendez v. Elliot,
45 F.3d 75 (4th Cir. 1995). . . . . . . . . . . . . . passim
Millan v. USAA Gen. Indem. Co.,
546 F.3d 321 (5th Cir. 2008). . . . . . . . . . . . passim
Morgan v. Sebelius,
2010 WL 1404100 (S.D.W.Va. Mar. 31, 2010) . . 7

ix
Okla. Ex rel. Bd. Of Regents v. Fellman,
153 F. App’x 505 (10th Cir. 2005) . . . . . . . . . . . 22
Panaras v. Liquid Carbonic Indus. Corp.,
94 F.3d 338 (7th Cir. 1996). . . . . . . . . . . 21, 22, 24
Patterson v. Brown,
2008 WL 219965 (W.D.N.C. Jan. 24, 2008) . 15, 16
Patterson v. Whitlock,
392 Fed. Appx. 185 (4th Cir. Aug. 23, 2010) . . . 16
Petrucelli v. Bohringer and Ratzinger,
46 F.3d 1298 (3d Cir. 1995) . . . . . . . . . . . . . . . . 21
Powell v. Starwalt,
866 F.2d 964 (7th Cir. 1989). . . . . . . . . . . . . . . . 16
Robinson v. G.D.C. Inc.,
193 F. Supp.3d 577 (2016) . . . . . . . . . . . . . . . 3, 23
Scott v. Maryland State Dept. of Labor,
Record No. 15-1617 (4th Cir.) . . . . . . . . . . . . . . . 24
Scruggs v. Spartanburg Reg’l. Med. Ctr.,
1999 WL 957698 (4 th Cir. Oct. 19, 1999) . . . . . . 23
Tenenbaum v. PNC Bank Nat’l Assoc.,
2011 WL 2038550 (D.Md. May 24, 2011) . . . . . 25
Thompson v. Brown,
91 F.3d 20 (5th Cir. 1996). . . . . . . . . . . . . . . 21, 24
United States v. McLaughlin,
470 F.3d 698 (7th Cir. 2006). . . . . . . . . . . . . . . . 27
Vantage v. Vantage Travel Serv., Inc.,
2009 WL 735893 (D.S.C. Mar. 20, 2009) . . . . . . 25

x
Veal v. United States,
94 F. App’x 253 (3d Cir. 2004) . . . . . . . . . . . . . . 22
Zapata v. City of N.Y.,
502 F.3d 192 (2d Cir. 2007) . . . . . . . . . . . . . 20, 21
STATUTES AND RULES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
FED. R. CIV. P. 4 . . . . . . . . . . . . . . . . . . . . . . . . passim
FED. R. CIV. P. 4(j) (1988) . . . . . . . . . . . . . . . . . passim
FED. R. CIV. P. 4(m) (2015). . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
Advisory Committee’s Notes on Fed. Rule Civ.
Proc. 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Capone, Gregory M., You Got Served: Why an
Excusable Neglect Standard Should Govern
Extensions of Service Time After Untimely
Service Under Rule 4(M), 83 St. JOHN’S L. REV
665 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
FED. R. CIV. P. 4 Advisory Committee’s Notes –
1993 amendment, subdivision (m) . . . . . . . . . . 2, 3
FED. R. CIV. P. 4(m) Advisory Committee’s Note
(1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
FED. R. CIV. P. 4(m) Advisory Committee’s Note to
2015 Amendment . . . . . . . . . . . . . . . . . . . . . . . . . 5

xi
Patricia W. Moore, A Review of the Proposed
C h a n g e
t o
F R C P
4 ( m )
https://lawprofessors.typepad.com/civpro/2014/
08/a-review-of-the-proposed-change-to-frcp4m.html . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
The New (Dec. 1, 1993) Rule 4 of The Federal Rules
of Civil Procedure: Change in Summons Service
and Personal Jurisdiction, 152 F.R.D. 249 (1994)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
4A WRIGHT & MILLER, Federal Practice &
Procedure: Civil 2d § 1137 (2d ed. 1987; 1993
Supp.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Kimberly D. Collins respectfully petitions
this Court for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Fourth Circuit in this case.
OPINIONS BELOW
The Fourth Circuit’s opinion is unpublished but
reproduced at App. at 1-9. Its order denying panel
rehearing and rehearing en banc is unreported but
reproduced at App. 23-24. The District Court’s order
denying Collins’ pre-deadline motion for an extension
of time to complete service is unreported but
reproduced at App. at 19-22. The District Court’s order
denying Collins’ Rule 59 motion regarding its dismissal
decision is unreported but reproduced at App. at 10-18.
JURISDICTION
The Fourth Circuit denied Collins’ timely petition
for panel rehearing and rehearing en banc on
September 16, 2019. App. at 23. Then, on December 9,
2019, the Chief Justice granted Collins an extension to
January 15, 2020 to file this petition for writ of
certiorari. Dkt. No. 19A633. This Petition is timely filed
within this extended deadline, and this Court has
jurisdiction under 28 U.S.C. § 1254(1).

2
RULE OF CIVIL PROCEDURE INVOLVED
At all relevant times herein, Federal Rule of Civil
Procedure 4(m) has provided:
If a defendant is not served within 90 days after
the complaint is filed, the court – on motion or
on its own after notice to the plaintiff – must
dismiss the action without prejudice against
that defendant or order that service be made
within a specified time. But if the plaintiff
shows good cause for the failure, the court must
extend the time for service for an appropriate
period.
FED. R. CIV. P. 4(m) (2015).
INTRODUCTION
Unlike nine other circuits, the Fourth Circuit holds
that absent good cause, Rule 4(m) of the Federal Rules
of Civil Procedure does not allow a district court
discretion to extend the time for service of process. It
has held this position since 1995 (when it issued its
decision in Mendez v. Elliot, 45 F.3d 75 (4th Cir. 1995)),
even though just a year later, this Court in Henderson
v. United States recognized (in dicta) that under the
1993 amendments to Rule 4, “courts have been
accorded discretion to enlarge the 120-day1 period ‘even
if there is no good cause shown.’” 517 U.S. 654, 662
(1996) (emphasis added) (quoting Fed. R. Civ. P. 4
Advisory Committee’s Notes – 1993 amendment,

1

In 2015, Rule 4 was amended to reduce the time in which to effect
service of process from 120 to 90 days. FED. R. CIV. P. 4(m) (2015).

3
subdivision (m)). Since that time, Mendez has become
a pariah in the law, so much so that “courts and
commentators are virtually unanimous in the view that
Mendez is wrong.” Robinson v. G.D.C. Inc., 193 F.
Supp.3d 577, 582 n. 1 (2016).
This Court recognized the split caused by Mendez
when it granted certiorari in Chen v. Mayor & City
Council of Baltimore, Md., 135 S. Ct. 475 (2014)
(mem.). In that grant, this Court noted a 7-1 circuit
split on discretionary extensions under Rule 4(m) –
with the Second, Third, Fifth, Seventh, Ninth, Tenth,
and Eleventh Circuits on one side of the ledger (saying
“Yes” to discretionary extensions even without good
cause) and the Fourth Circuit all by itself on the other
(saying “No”). In fact, the split is even more lopsided
than this Court noted because both the Eighth Circuit
and the D.C. Circuit also hold that Rule 4(m) affords
such discretion. Although this Court was unable to
resolve the circuit conflict due to the self-represented
petitioner’s failure to file a merits brief, Chen, 135 S.
Ct. 939 (2015) (mem.), the 9-1 split remains firmly in
place.
The Fourth Circuit’s interpretation of Rule 4(m) is
irreconcilable with these holdings and causes disparate
results in like cases – even within the circuit itself -based solely on the serendipity of one’s geography. In
this case, for example, the Richmond-Virginia-based
District Court, when twice rejecting Collins’ requests to
extend the deadline for service, repeatedly emphasized
a lack of good cause for justifying an extension. It also
expressly noted that Mendez was “the only binding
authority on [the issue of discretion under Rule 4(m)]

4
in this Circuit.” App. at 16. At almost the exact same
time, however, less than two hundred miles away in
Roanoke, Virginia (within the Fourth Circuit but in
another federal district in Virginia), the chief judge of
the Western District of Virginia held that Mendez was
not good law and, following factors set forth in the Fifth
Circuit’s decision in Millan v. USAA Gen. Indem. Co.,
546 F.3d 321, 325-26 (5th Cir. 2008), granted an
extension of time to effect service because, even though
no good cause was shown, the statute of limitations
would have barred a future re-filing. Broome v. Iron
Tiger Logistics, Inc., 2018 WL 3978998 at *4 (W.D. Va.
Aug. 20, 2018). If only Collins had been so fortunate to
live in Roanoke. And if Collins had been in any federal
court in Louisiana, Texas, or Mississippi, the holding in
Millan would have categorically prevented a district
court from dismissing her Complaint based on the facts
of record here. In other words, identically-situated
litigants in different federal courts and in different
circuits receive different types of justice.
In short, the need for this Court’s review is as
imperative now (if not more so) as it was in Chen.
Indeed, since Chen, the Fourth Circuit has twice been
presented with petitions for rehearing that would have
given it a clear opportunity to self-correct its Rule 4
jurisprudence, but it has refused to do so. This Court’s
intervention is warranted, and this Petition should be
granted.

5
STATEMENT OF THE CASE
I.

Background Regarding Federal Rule of
Civil Procedure 4(m) (Formerly Rule 4(j))
A. The Current Rule

At all relevant times herein, Federal Rule of Civil
Procedure 4(m) has provided:
If a defendant is not served within 902 days after
the complaint is filed, the court – on motion or
on its own after notice to the plaintiff – must
dismiss the action without prejudice against
that defendant or order that service be made
within a specified time. But if the plaintiff
shows good cause for the failure, the court must

2

The 90-day time limit is relatively recent. Prior to 2015, a
plaintiff had 120 days to complete service – i.e., 25% more time.
The reduction, together with other rule changes, was intended to
reduce delay at the beginning of litigation. However, as the
Advisory Committee to the proposed amendment noted:
“[s]hortening the presumptive time for service will increase the
frequency of occasions to extend the time for good cause.” FED. R.
CIV. P. 4(m) Advisory Committee’s Note to 2015 Amendment.
Indeed, the reduction was approved even though the written
comments were roughly 7 to 1 against the shortening of the service
deadline. Patricia W. Moore, A Review of the Proposed Change to
FRCP 4(m) https://lawprofessors.typepad.com/civpro/2014/08/areview-of-the-proposed-change-to-frcp-4m.html (visited on
January15, 2020). Commenters noted that even dismissals without
prejudice would cause plaintiffs to incur costs to re-file and also
predicted an increase in motion practice “as plaintiff would need
to move for extensions more frequently.” Id.

6
extend the time for service for an appropriate
period.
FED. R. CIV. P. 4(m) (2015).3
The text of the rule makes plain that after the
expiration of the 90-day time limit, a plaintiff has two
methods by which to avoid dismissal of her complaint:
through a showing of “good cause,” or by convincing the
district court that it should exercise its discretion and
extend the time for service even absent a showing of
good cause.
B. The Pre-1993 Rule (Rule 4(j))
By contrast, district court discretion was nowhere to
be found in the pre-1993 version of the rule (what was
then Rule 4(j)). That version read:
If a service of the summons and complaint is not
made upon a defendant within 120 days after
the filing of the complaint and the party on
whose behalf such service was required cannot
show good cause why such service was not made
within that period, the action shall be dismissed
as to that defendant upon the court’s own
initiative with notice to such party or upon
motion.
FED. R. CIV. P. 4(j) (1988) (emphasis added). Under that
version of the rule, a plaintiff had one – and only one -avenue to avoid dismissal if service was not made

3

With this exception of the 90-day period, discussed separately,
infrra n.2, the language of this rule has been substantively the
same from 1993 to the present.

7
within 120 days: good cause. Failure to show good
cause meant that dismissal was mandated. Morgan v.
Sebelius, 2010 WL 1404100, at *2 (S.D.W.Va. Mar. 31,
2010) (“It is clear that from 1983 until 1993, the
applicable rule did not allow courts to extend the time
for service if the plaintiff could not show good cause.”).
C. The Purpose of the 1993 Amendments
The 1993 amendments thus flipped the script on the
way district courts are required to analyze potential
dismissals under Rule 4(m). As the Advisory
Committee’s notes explain: “[t]he new subdivision
explicitly provides that the court shall allow additional
time if there is good cause for the plaintiff's failure to
effect service in the prescribed 120 days, and authorizes
the court to relieve a plaintiff of the consequences of an
application of this subdivision even if there is no good
cause shown.”
FED. R. CIV. P. 4(m) Advisory
Committee’s Note (1993) (emphasis added). The
Committee’s notes continue that “[r]elief may be
justified, for example, if the applicable statute of
limitations would bar the refiled action.” Id. This
Court specifically cited the Committee’s notes in its
1996 Henderson v. United States, decision, where it
stated that under Rule 4(m), “courts have been
accorded discretion to enlarge the [service] period even
if there is no good cause shown.” 517 U.S. 654, 662
(quoting Advisory Committee Notes).

8
D. Mendez v. Elliot
In 1995, the Fourth Circuit decided Mendez v.
Elliot, 45 F.3d 75 (4th Cir. 1995). There, the Court of
Appeals applied the predecessor to Rule 4(m), but held
that there was no substantive difference between the
old rule and the new rule. As such, it held that “Rule
4(m) requires if the complaint is not served within 120
days after it is filed, the complaint must be dismissed
absent a showing of good cause.” Id. at 78. (emphasis
added). The Fourth Circuit also expressly rejected the
notion that the running of a plaintiff’s statute of
limitations could justify relief under either the new or
old version of the rule. As the court stated: “Rule 4(j)
does not . . . give the appellant a right to refile without
consequences of time defenses, such as the statute of
limitations.” Id. (emphasis added).
In reaching its decision in Mendez, the Fourth
Circuit believed that “Rule 4(j) was edited without a
change in substance.” Id. at 78 (emphasis added).
Clearly, it was. Escalante v. Tobar Construction, Inc.,
2019 WL 109369 at *2 (D. Md. Jan. 3, 2019) (“When
Mendez was decided, the Rule in question had recently
been amended. Mendez, without analysis, treated the
new Rule 4(m) as if it were substantively the same rule
as its predecessor, Rule 4(j). . . However, in comparing
the two Rules, clearly it was not.”) (emphasis added).
The court of appeals also inexplicably did not mention
or discuss the Advisory Committee’s Notes, which,
notably, advise that a district court may “relieve a
plaintiff of the consequences of an application” of the
service deadline “even if there is no good cause shown.”

9
Despite these problems, Mendez has never been
overruled. In fact, even after this Court dismissed the
writ of certiorari in Chen, some courts in the Fourth
Circuit have continued to rely on Mendez.4 Thus, for
the last twenty-five years5, the Fourth Circuit’s binding
precedent has said that under Rule 4(m), a district
court has no discretion to extend the time for a plaintiff
to complete service if good cause could not be shown.
II.

Factual and Procedural Background
A. Collins’ Files Her Complaint And Files A
Pre-Deadline Motion To Extend The
Time To Complete Service Of Process

On March 28, 2018, Collins filed her Complaint
against Thornton. JA6-106. Collins sought relief under
42 U.S.C. § 1983 for violations of her Fifth and
Fourteenth Amendment due process rights after
Thornton falsely accused her of stealing time while she
was out on FMLA and disability leave at her job at
4

See, e.g., Addison v. Amica Mut. Ins. Co., 2019 WL 2191795, at *3
(D.S.C. May 21, 2019) (applying Mendez and holding that, as such,
“the court cannot avail itself the option that appears to be offered
by Rule 4(m)—that is, directing Plaintiff to effect service by a
certain time—unless good cause is shown for the failure to timely
serve Defendant”) and Martin v. S.C. Dep’t of Corrs., 2019 WL
2124957, at *3 (D.S.C. Apr. 23, 2019) (same).
5

Mendez was decided on January 25, 1995 and today’s date is
January 15, 2020 – not quite twenty-five full years. However, by
the time this Petition is circulated to the Court for its
consideration, a full twenty-five years will have passed since
Mendez was decided.
6

“JA” refers to the Joint Appendix filed in the Fourth Circuit.

10
Virginia State University (“VSU”) and, consequently,
causing Collins to be suspended from employment as a
result. Id. at 8-9. Thornton had a particular dislike of
Collins and falsely called her “retarded” and “mentally
slow.” Id. at 7.
On Tuesday, June 19, 2018, a week before the
expiration of the 90-day service period in this case,
Collins’ counsel put service of the Complaint on his “to
do” list for the day. JA41. This task had not been
completed sooner because he had been busy with other
then-active federal lawsuits and wanted to control the
pace of his older and newer lawsuits so as not to
overextend himself. Id.
Unfortunately, his plans for that day changed (and,
indeed, most were scuttled) when he learned, just
before noon, that his wife’s 90-year-old grandmother
had fainted and fallen that morning and had been
taken to the hospital for concerns about heart trouble
and seriously low blood pressure. JA41. At that time,
counsel picked up his wife from their home, drove her
to the hospital, and stayed with her and her other
family members for the remainder of the afternoon and
into the early evening. Id. Collins’ counsel did no work
during that time period and, instead, helped provide
comfort and support to his wife and her family. Id.
The next day, on June 20, 2018, after learning that
his wife’s 90-year-old grandmother’s blood pressure had
stabilized and that she would soon be released from the
hospital, Collins’ counsel caught up on the work from
the day before. Id. As part thereof, he sent an e-mail to
Ms. Ramona Taylor, counsel for Thornton’s employer,

11
VSU, asking if she would be willing to accept service of
the Complaint on behalf of Thornton. JA41-42.
Based on counsel’s prior experience with Ms. Taylor
in an earlier lawsuit involving Collins suing
Thornton, he believed this approach was both
reasonable and even efficient. JA42. Indeed, in the
prior case, even though Thornton had been represented
by the Office of the Attorney General (of Virginia) in
the actual federal lawsuit, Ms. Taylor had participated
in various e-mails and phone calls between opposing
counsel during that case. Id. Moreover, even before
Collins served her first lawsuit on either VSU or
Thornton, Collins’ counsel had sent the initial
Complaint to Ms. Taylor in an effort at possible
resolution of the disputes between the parties. Id. and
JA45-47 (e-mails between counsel).
Ms. Taylor did not respond to the June 20, 2018 email. JA42.
On Friday, June 22, 2018, Collins’ counsel again emailed Ms. Taylor to follow up on his prior e-mail and
to again inquire as to whether she would agree to
accept service, or be willing to complete a Waiver of
Service Form, for Thornton. Id. Ms. Taylor did not
respond to this e-mail either. Id.
Having heard nothing from Ms. Taylor, Collins’
counsel hired a process server on June 26, 2018 to
serve the lawsuit and the summons on Thornton. Id.
The server went straight to VSU, where he was told
that even though Thornton was out of the office for the
day, her assistant would accept service on her behalf.
Id. Moments later, however, apparently after

12
communications between the assistant and the VSU
legal department, the assistant changed her position
and refused to accept service for Thornton. Id. She also
informed the server that Thornton would not actually
be back to VSU until the following week. Id.
The process server’s business then called Collins’
counsel, explained the above, and advised that after all
of the back-and-forth, it left a copy of the lawsuit with
the assistant. JA42-43. Worried that what he just had
been told might not comply with Rule 4, Collins’
counsel, in an abundance of caution, filed a (predeadline) motion to extend the time to file service. Id.
at 17-18. He also filed a supporting memorandum. Id.
at 19-22.
In support of the motion, Collins’s counsel (i) laid
out his prior dealings with VSU’s counsel in their
earlier case involving the same two parties;
(ii) explained his recent requests for a Waiver of
Service; (iii) explained the apparent troubles that had
occurred at VSU when his process server had
attempted to serve Thornton there; (iv) said that the
only prejudice – which is not legally valid prejudice
under the law7 – to the defendant would be having to
defend the lawsuit without the benefit of the statute of
limitations running; and (v) requested two extra weeks
to complete service on Thornton. See JA19-22.

7

Boley v. Kaymark, 123 F.3d 756, 759 (3d Cir. 1997) (“We are
aware of no decisions refusing to grant an extension under Rule
4(m) solely on the ground that denying the defendant the benefit
of the running of the statute of limitations amounts to cognizable
prejudice.”).

13
B. The District Court Denies Collins’
Extension Motion And Then, Without
Any Prior Notice, Sua Sponte Dismisses
The Complaint.
Less than 24 hours after Collins filed her motion,
the District Court denied it. App. at 22. Without any
citation to legal authority and without any discussion
of the harm that would result from the running of the
statute of limitations if the case was dismissed (even if
dismissed without prejudice), the court stated that it
did “not find that the reasons stated in the Motion to
Extend Time demonstrate either good cause or
excusable neglect.” Id.
In the very same order, however, the District Court
sua sponte dismissed the Complaint and closed the
case. Id. The court did not give Collins any advance
notice that it would be dismissing the case. This was
contrary to the requirements of Rule 4(m), which states
that dismissal is appropriate only “after notice to the
plaintiff.” FED. R. CIV. P. 4(m) (emphasis added).
C. The District Court Denies Collins’ Rule
59 Motion For Reconsideration And, In
Doing So, Expressly Invokes The
Precedential And Binding Effect Of The
Fourth Circuit’s Decision in Mendez v.
Elliot.
Three weeks later, Collins’ process server filed a
sworn, fully-executed Proof of Service form with the
District Court’s clerk’s office. JA1, 23-24. In that
document, the server declared under penalty of perjury
that he had, in fact, served Thornton on June 26, 2018

14
(the last day available) by leaving the summons with
her agent, Tracy Williams. JA24. Notably, Williams is
listed as an administrative assistant in the VSU
Department of Social Work, the Department where
Thornton works as an Assistant Professor. See JA31,
n.4.
After seeing this new filing and after personally
speaking with the process server, Collins’ counsel
realized that the lawsuit paperwork had not simply
been “left” with the assistant, but in fact had been
“accepted” by the assistant. JA43. According to the
server, the administrative assistant’s final acceptance
was basically consistent with her initial agreement to
accept the papers. Id. In other words, she initially said
yes, then said no, and then actually accepted the
papers. Id. Unlike when she said she would not accept
service (when she refused to even take the lawsuit
papers), in her final interaction with the process
server, the assistant took the lawsuit paperwork. Id.
It was because of this final interaction that the
process server completed and filed the fully executed
proof of service with the District Court. As the process
server explained to Collins’ counsel at that time, he had
often served paperwork on individuals at VSU in this
manner – i.e., by having it accepted by the individual’s
administrative assistant – without incident. Id.
Based on this new information and also believing
the District Court had failed to properly consider the
harsh impact of the running of the statute of
limitations on her claim against Thornton, Collins filed
a timely Rule 59 motion asking the District Court to
vacate its dismissal of her Complaint. See JA27-50. The

15
District Court promptly denied the motion, however,
focusing mostly on its continued belief that service on
Thornton’s administrative assistant – even with the
sworn proof of service – did not constitute proper
service. App. at 12-13.
At the same time, the District Court made several
startling revelations about its legal and factual reasons
for denying Collins’ Motion to Extend in the first place.
Most importantly, the District Court – despite paying
lip service about the possibility of granting a
discretionary extension under Rule 4(m) – made it
plain that it believed that Mendez was binding
precedent that controlled the outcome of its decision.
In clear and unambiguous language, the court said that
Since Mendez, Rule 4(m) has been amended to
shorten the period for service from 120 days to
90 days. Other than that, there have been no
substantive changes to the Rule, and Mendez
remains the only binding authority on the
issue in this Circuit.
App. at 16, n.2. (underscore, italics, and bold added).
It also cited the unpublished district court case of
Patterson v. Brown, 2008 WL 219965 (W.D.N.C. Jan.
24, 2008) as supporting legal authority for the
continued validity of Mendez. Id. at 16, n.2. There, the
Western District of North Carolina stated:
. . . while the continuing validity of Mendez is in
serious doubt, it is clear that Mendez is still
binding authority in this Circuit. . ..
Accordingly, under controlling Fourth Circuit
precedent, the Plaintiff is required to establish

16
good cause for extending the period for service
beyond the 120 days provided in Rule 4(m).
Patterson, 2008 WL 219965 at *14. The court then held
that since Plaintiff had failed to show good cause, the
case was dismissed. Id
What the District Court failed to mention, however,
was the that the Fourth Circuit actually reversed the
dismissal of plaintiff’s Complaint in Patterson on other
grounds, thus vacating the entire decision upon which
the District Court had relied. As the Fourth Circuit
explained in its reversal decision, because of its
reversal, it did not need to address the plaintiff’s
remaining claims of error – one of which was “that the
district court abused its discretion in refusing to extent
the time to complete service of process.” Patterson v.
Whitlock, 392 Fed. Appx. 185, 193 n.7 (4th Cir. Aug. 23,
2010).
Just as revealing, in discussing the impact of the
running of Collins’ statute of limitations, the District
Court specifically invoked Mendez’s mantra that Rule
4(m) does not “give the [plaintiff] a right to refile
without the consequence of time defenses, such as
statute of limitations.” App. at 16. The District Court
also cited to the Seventh Circuit’s 1989 decision Powell
v. Starwalt, 866 F.2d 964, 966 (7th Cir. 1989), which
applied the pre-1993-amendment Rule 4(j) and
emphasized that “‘Without prejudice’ does not mean
‘without consequence.’” App. at 16. Both Mendez and
Powell, however, arose solely in the context of holdings
that Rule 4 (whether Rule 4(j) or Rule 4(m)) required a
showing of “good cause” in order to permit a court to
extend the time to complete service. In other words,

17
the District Court’s legal analysis of the consequences
of the running of the statute of limitations on Collins’
claim was clearly controlled by the precedent of Mendez
and not by the 1993 Advisory Committee’s Notes about
Rule 4(m).
The District Court entered its order denying Collins’
Rule 59 motion on July 27, 2018. App. at 18.
D. At The Exact Same Time That The
District Court Issues Its Decision In The
Eastern District Of Virginia, A Sister
Court Issues A Diametrically Opposed
Decision In The Western District Of
Virginia.
Three weeks later, on August 20, 2018 – before
Collins had even filed her appeal to the Fourth Circuit
-- the chief judge of the Western District of Virginia,
sitting in Roanoke, Virginia – located less than 200
miles from District Court’s situs in Richmond, Virginia
– issued a decision that was diametrically opposed to
the one just issued by the District Court. Specifically,
in Broome v. Iron Tiger Logistics, Inc., 2018 WL
3978998 (W.D. Va. Aug 20, 2018), the court granted the
plaintiff an extension under Rule 4(m) even in the
absence of good cause and denied the defendant’s
motion to dismiss for lack of timely service.
Broome is diametrically opposed to the District
Court’s decision in two material respects. First, the
court in Broome specifically rejected Mendez as good
law in the Fourth Circuit.
Noting the stark
disagreement among district courts within the Fourth
Circuit about the validity of Mendez, the court held

18
that Mendez had been abrogated due to the most recent
amendments to Rule 4(m) from 2015. Broome, 2018
WL 3978998 at *4. Second and just as important, the
court held that even though it had discretion under
Rule 4(m) to extend the time for service in the absence
of good cause, that discretion was constrained when the
statute of limitations would bar the refiling of a
complaint if it was dismissed without prejudice under
Rule 4(m) – that is, the dismissal would effectively be
a dismissal with prejudice. Id. The court, following
factors set forth the Fifth Circuit’s decision in Millan v.
USAA Gen. Indem. Co., 546 F.3d 321, 325-326 (5th Cir.
2008), and emphasizing that federal courts are meant
to resolve cases on the merits, granted an extension of
time for the plaintiff to serve the defendant. Id.
E. The Fourth Circuit Affirms The District
Court’s Dismissal, But Fails To Discuss,
Much Less Consider, The Factors
Applicable To A Discretionary
Extension Under Rule 4(m)
Citing Broome in her Notice of Appeal, see JA60,
n.a., Collins appealed the District Court’s orders to the
Fourth Circuit. JA58-61. The Fourth Circuit, however,
affirmed the orders by unpublished opinion. App. at 18. But the Court of Appeals focused its decision solely
on the issue of “good cause” under Rule 4(m), see App.
at 3-5. Indeed, not once did it mention or discuss the
Advisory Committee’s considerations applicable to
discretionary extensions under Rule 4(m) – such as the
running of the statute of limitations and the lack of

19
prejudice to the defendant – in its opinion.8 This
meant, then, that the Court of Appeals blessed the
District Court’s faulty legal analysis and left it fully in
place.
Collins filed a timely petition for panel rehearing
and rehearing en banc, where she expressly identified
the Mendez-based circuit split as a compelling reason
to grant the petition. See Petition for Panel Rehearing
and Rehearing En Banc, p. 2, 3, 10-15, Dkt. Entry 32,
18-1995. Even so, the Fourth Circuit denied Collins’
petition. App. at 23-24.

8

Even in its discussion of “good cause” under Rule 4(m), the
Fourth Circuit got its facts wrong and downplayed Collins’
counsel’s efforts at service. Notably, it said that in her initial
extension motion with the District Court, Collins failed to provide
“any explanation as to why counsel waited approximately two
months after issuance of the summons to attempt service or obtain
a waiver of service within the 90-day period.” App. at 5. But the
motion and its supporting memorandum clearly stated that
Collins’ counsel had sought twice in the week before the expiration
of the 90-day period to obtain a Waiver of Service from the same
attorney who had previously represented Thornton in a companion
case between the same parties. JA19-20. As well, in her Rule 59
and supporting memorandum, Collins fully explained that the
reason her counsel had waited to serve Thornton was that he was
trying to control the proper pacing of his cases so as to properly
balance his caseload. JA31-32. This pacing was unexpectedly
derailed when counsel’s wife’s 90-year-old grandmother had to be
hospitalized on the very day counsel had planned to have Thornton
served with process. JA32-33.

20
REASONS FOR GRANTING THE WRIT
I.

This Court Should Grant Certiorari To
Resolve The Lopsided But Well-Entrenched
9-1 Circuit Split That Exists As To Whether
Fed.R.Civ.P. 4(m) Allows A District Court
To Extend The Time To Complete Service
In The Absence Of Good Cause.

This is a straightforward and compelling case in
which to grant certiorari. Both the District Court
(which expressly relied on Mendez) and the Fourth
Circuit (which blessed such reliance) focused on the
lack of good cause – to the exclusion of the factors set
forth in the Advisory Committee’s Notes -- for purposes
of concluding it was appropriate to deny an extension
of time for Collins to complete service of process. This
result affirms Mendez and continues the Fourth
Circuit’s proliferation of its flawed Rule 4(m)
jurisprudence, which is in direct conflict with nine
other courts of appeals, conflicts with this Court’s
interpretation of Rule 4(m), and makes no sense under
the plain language of Rule 4(m) and the interpretation
of that language by the Advisory Committee.
1. At least nine circuits hold that Rule 4(m) makes
an extension of time for service mandatory if good
cause is shown and discretionary based on various
equitable factors (including whether the running of the
statute of limitations will bar a re-filed action) if good
cause is not shown. These nine circuits include the
seven this Court identified when it granted certiorari
in Chen, 135 S.Ct. 475, as well as the Eighth and D.C.
Circuits. See, e.g., Mann v. Castiel, 681 F.3d 368, 375
(D.C. Cir. 2012); Zapata v. City of N.Y., 502 F.3d 192,

21
196 (2d Cir. 2007); Horenkamp v. Van Winkle & Co.,
402 F.3d 1129, 1133 (11th Cir. 2005); Mann v. Am.
Airlines, 324 F.3d 1088, 1090 (9th Cir. 2003); Thompson
v. Brown, 91 F.3d 20, 21 (5th Cir. 1996); Panaras v.
Liquid Carbonic Indus. Corp., 94 F.3d 338, 340 (7th Cir.
1996); Adams v. Allied Signal Gen. Aviation Avionics,
74 F.3d 882, 887 (8th Cir. 1995); Espinoza v. United
States, 52 F.3d 838, 840 (10th Cir. 1995); Petrucelli v.
Bohringer and Ratzinger, 46 F.3d 1298, 1304 (3d Cir.
1995).
The rationale behind these decisions is self-evident:
the language of the 1993 amendments to Rule 4(m)
means what it says. But another common theme in
these decisions is the importance of considering the
running of the statute of limitations when deciding
whether or not to grant a discretionary extension of
time to complete service under the rule. See, e.g., De
Tie v. Orange Cty, 152 F.3d 1109, 1111 n.5 (9th Cir.
1998) (recognizing that an extension may be warranted
if the statute of limitations has run); Panaras v. Liquid
Carbonic Industries Corp., 94 F.3d at 341 (“because the
statute of limitations . . . would bar a new complaint in
this case . . . it was incumbent upon the district court to
fully consider this factor”) (emphasis added); Espinoza,
52 F.3d at 842 (“upon reconsideration of Mr. Espinoza’s
claim, the district court should consider the limitations
period in deciding whether to exercise its discretion
under Rule 4(m)”); Petrucelli, 46 F.3d at 1306, n.8
(noting that “because the statute of limitations would
be the refiled action here, it would be appropriate for
the district court to consider this factor” on remand).
The Eleventh Circuit even went so far as to suggest
that such factor “militates in favor of the exercise of the

22
district court’s discretion” to grant an extension.
Horenkamp, 402 F.3d at 1133.
Moreover, several of those courts also hold that Rule
4(m) requires district courts to consider whether to
grant a discretionary extension and that the failure to
do so is an automatic abuse of discretion. See, Corbett
v. ManorCare, Inc., 224 F. App’x 572, 574 (9th Cir.
2007); Okla. Ex rel. Bd. Of Regents v. Fellman, 153
F. App’x 505, 507 (10th Cir. 2005); Veal v. United States,
94 F. App’x 253, 256 (3d Cir. 2004); Panaras v. Liquid
Carbonic Indus. Corp., 94 F.3d 338, 341 (7th Cir. 1996).
The Fourth Circuit, on the other hand, stands alone
in holding that a showing of good cause is the only way
that a district court is authorized to extend the time for
service under Rule 4(m). Mendez, 45 F.3d at 78-79.
Despite criticism9 and even its own inconsistent

9

See 4A WRIGHT & MILLER, Federal Practice & Procedure: Civil 2d
§ 1137, at 64, n. 13 (2d ed. 1987; 1993 Supp.) (“The Fourth Circuit
improperly held [in Mendez] that Rule 4(j) was edited without
substantial change and renumbered as Rule 4(m) by the 1993
Amendments.”). See also Escalante, 2019 WL 109369 at *2 (“courts
in this district have rightfully questioned whether Mendez properly
reached the new Rule 4(m)”).

23
unpublished opinions10, the Fourth Circuit has held
firm to this rule for more than 20 years.
In short, this 9-1 conflict, which is well-developed
and well-entrenched, warrants this Court’s review just
as it did in Chen.
2. In addition to continuing to foster a deep and
severely lopsided circuit split, the Fourth Circuit’s
Mendez rule is plainly wrong. Most obviously, it is
inconsistent with this Court’s decision in Henderson v.
United States, 517 U.S. 654 (1996). Albeit in dicta, this
Court in Henderson explained that under the 1993
amendments to the Federal Rules, under Rule 4,
“courts have been accorded discretion to enlarge the
120-day period ‘even if there is no good cause shown.’”
Id. at 662 (emphasis added) (quoting Advisory
Committee’s Notes on Fed. Rule Civ. Proc. 4). Thus, in
the words of at least one lower court judge in the
Fourth Circuit, “the Supreme Court thinks Mendez is
wrong.” Robinson v. G.D.C. Inc., 193 F. Supp.3d 577,
582 n. 1 (2016).

10

See, e.g., Hansan v. Fairfax Cty. Sch. Bd., 405 F. Appx 793, 79394 (4th Cir. 2010) (stating rule contrary to Mendez); Giacomo-Tano
v. Levine, 1999 WL 976481, at *1 (4th Cir. Oct. 27, 1999) (same);
Scruggs v. Spartanburg Reg’l. Med. Ctr., 1999 WL 957698, at *2
(4th Cir. Oct. 19, 1999) (“[W]e regard the [Supreme] Court’s
statement [in Henderson] as persuasive as to the meaning of Rule
4(m). Accordingly, we believe that the district court, in its
discretion, could have extended the time for proper service of
process.”).

24
Mendez, however, ignored the obvious textual
difference the new amendments (together with the
Advisory Committee’s notes discussing the
amendments) and former Rule 4(j). While the Fourth
Circuit claimed that “Rule 4(j) was edited without a
change in substance and renumbered as Rule 4(m)”
Mendez, 45 F.3d at 78, this was plainly not true, as
other circuits have been quick to point out. See, e.g.
Panaras, 94 F.3d at 340 (noting that the Fourth Circuit
in Mendez “erroneously concluded that Rule 4(j) was
amended and renumbered without substantive
change”) (emphasis added). See also Thompson, 91 F.3d
at 21, n.1 (explaining that Mendez “provides no insight
as to why the court disregarded the plain language of
rule 4(m) and instead treated the rule as the mirror
image of rule 4(j)”). Even district courts within the
Fourth Circuit have recognized that this assertion is
indefensible.11
Moreover, for whatever reason, the Fourth Circuit
has repeatedly eschewed direct efforts to bring its
jurisprudence in line with the nine other circuits. In
Scott v. Maryland State Dept. of Labor, Record No. 151617 (4th Cir.), for example, the court rejected a petition
for rehearing en banc where the continued validity of
Mendez was squarely raised. Dkt. Entry No. 50 (March
30, 2017). It did the same in this case.

11

Escalante, 2019 WL 109369 at *2 (“When Mendez was decided,
the Rule in question had recently been amended. Mendez, without
analysis, treated the new Rule 4(m) as if it were substantively the
same rule as its predecessor, Rule 4(j). . . However, in comparing
the two Rules, clearly it was not.”) (emphasis added).

25
3. Finally, the Fourth Circuit’s continued inaction
as to Mendez has led to the proliferation of dozens of
irreconcilably inconsistent district court decisions12 as
to whether they have discretion to extend the service
period under Rule 4 in the absence of good cause. The
inconsistency has raged for years and is alive and well
even now. Compare Addison, 2019 WL 2191795, at *3
(D.S.C. May 21, 2019) (applying Mendez and holding
that, as such, “the court cannot avail itself the option
that appears to be offered by Rule 4(m)—that is,
directing Plaintiff to effect service by a certain
time—unless good cause is shown for the failure to
timely serve Defendant”) and Martin, 2019 WL
2124957, at *3 (same) with Mason v. Lewis Contracting
Services, LLC, 2019 WL 2395492 at *2 (W.D.Va. June
6, 2019) (citing Giacomo-Tano and Henderson and
stating that “the court may exercise discretion to
extend the service period even in the absence of good
cause.”) and Escalante, 2019 WL 109369, at *4
(“Mendez no longer controls the analysis.”).

12

Compare e.g., Tenenbaum v. PNC Bank Nat'l Assoc., 2011 WL
2038550, *4 (D.Md. May 24, 2011) (noting that “while Mendez may
stand on shaky footing, it remains the law of this circuit”); Vantage
v. Vantage Travel Serv., Inc., 2009 WL 735893, *2, *3 (D.S.C. Mar.
20, 2009) (explaining why “the holding in Mendez is arguably no
longer viable[,]” but also finding that “to the extent Mendez ...
remains good law,” the plaintiff had shown good cause) with Lane
v. Lucent Techs., Inc., 388 F.Supp.2d 590, 596–97 (M.D.N.C.2005)
(noting that Henderson “undermines the validity of Mendez’s
mandated dismissal absent a showing of good cause” and finding
that the court had discretion to extend the time for service absent
a showing of good cause).

26
To say that this inconsistency has jeopardized the
integrity of the rule of law as to Rule 4 is an
understatement. Not only is the Fourth Circuit’s
precedential pronouncement as to Rule 4 completely at
odds with the law of nine other Circuits, it regularly
creates internal havoc within the Circuit itself. The
simple comparison between this case and Broome,
supra, is emblematic. Simply stated, two coordinate
courts in the same circuit -- within in the same state,
less than 200 miles apart – reached diametrically
opposed results using diametrically opposed rules of
law. In other words, if Collins had been fortunate
enough to live near Roanoke, Virginia, rather than
Richmond, Virginia, her case would not have been
dismissed. This is the textbook example of unequal
treatment under the law and undermines the whole
point of having consistency in the application of the
federal rules. As this Court has recognized, “[o]ne of
the shaping purposes of the Federal Rules [was] to
bring uniformity in the federal courts.” Hanna v.
Plumer, 380 U.S. 460, 472 (1965). This Court’s review
is thus vital to correct this disparate treatment of
identically-situated parties and to bring uniformity as
to Rule 4 – both among and within the federal circuits.

27
II.

This Court Should Grant Certiorari To
Identify The Appropriate Guidelines For
District Courts To Follow When They
Exercise Their Discretion Under Rule 4(m)
To Grant Or Deny An Extension Of Time To
Complete Service In The Absence Of Good
Cause; In Doing So, It Should Adopt The
Rule Of Law Adopted By The Fifth Circuit
In Millan v. USAA Gen. Indem. Co.

Certiorari should also be granted so that this Court
can set the guidelines for district courts to follow -- and
identify the factors for them to consider -- when they
exercise their discretion under Rule 4(m) to grant or
deny an extension of time to complete service in the
absence of good cause, particularly where the statute of
limitations would bar the re-filing of the Complaint.
Although the Advisory Committee’s Notes identify
several factors – including the running of the statute of
limitations – for district courts to consider, they fail to
provide meaningful guidance as to how to weigh or
apply those factors. As Judge Posner colorfully
explained in United States v. McLaughlin, 470 F.3d
698, 700 (7th Cir. 2006), “the plaintiff who fails to
demonstrate good cause for his delay throws himself on
the mercy of the court” but “the rule specifies no
criteria for the exercise of mercy.”
Professor Siegal, in addressing the issue of how to
analyze the running of the statute of limitations if an
extension is not granted in his Commentaries on Rule
4, put the issue even more bluntly:
They say that “[r]elief may be justified ... if the
... statute of limitations would bar the refiled

28
action”, but one can’t determine whether that by
itself is supposed to be “good cause” for an
extension, or merely what the committee feels
should be an acceptable reason for extending the
time even if the plaintiff can't show any “good
cause” for letting things go that far.
Under either conclusion, it can be argued that
every failure to serve within the 120 days “shall”
be excused by the court as long as it is shown
that the statute of limitations is now dead.
Plaintiffs can live with that, and happily ever
after, but is that really what the rule intends? Is
the extent of the delay to count at all? Is “good
cause” for the delay, which we assume means a
good reason for the delay, to play any role when
the statute of limitations is on the scene? Or
must a subdivision (m) time enlargement be
granted—as long as the complaint was filed
within the original statute of limitations—every
time it appears that a Rule 4 dismissal would
now bar a new action?
...
What a place for an ambiguity! Here stands the
plaintiff at the edge of the grave, and the rule
doesn't tell the court whether to offer the
plaintiff salvation, or a push.
All the notes really say is that the passing of the
statute of limitations “may” justify a time
extension, along with the statement that time
can be extended “even if there is no good cause

29
shown.” That combination creates a void,
not a guide.
The New (Dec. 1, 1993) Rule 4 of The Federal Rules of
Civil Procedure: Change in Summons Service and
Personal Jurisdiction, 152 F.R.D. 249, 260-261 (1994)
(emphasis added).
With these concerns in mind, the circuits are
divided on whether to analyze their discretion through
the lens of “excusable neglect” or the various equitable
factors identified in the Advisory Committee’s Notes.
See Capone, Gregory M., You Got Served: Why an
Excusable Neglect Standard Should Govern Extensions
of Service Time After Untimely Service Under Rule
4(M), 83 St. JOHN’S L. REV 665, 667 (2009) (explaining
circuit conflict). They too have varying standards in
place for how to analyze situations when the running
of the statute of limitations would bar a future refiling. Compare Millan, supra, at 326, with Mendez,
supra, at 78-79.
The most instructive case on the constraints placed
upon a court by the strong Circuit-wide policy that
federal courts should hear cases on their merits is
Millan v. USAA Gen. Indem. Co., supra. There, in
assessing whether the district court erred in refusing
to grant the plaintiff a discretionary extension under
Rule 4, the Fifth Circuit held that “where the
applicable statute of limitations likely bars future
litigation, a district court’s dismissal of claims under
Rule 4(m) should be reviewed under the same
heightened standard used to review a dismissal with
prejudice.” Millan, 546 F.3d at 326. In other words, a
district court’s discretion under Rule 4(m) is limited

30
and a heightened standard of review applies when a
plaintiff’s claim would be barred by a statute of
limitations if the district court dismissed the case for
lack of timely service – even if it does so nominally
“without prejudice.” Under this heightened standard,
the Court of Appeals concluded that dismissal under
Rule 4(m) is appropriate “only where ‘a clear record of
delay or contumacious conduct by the plaintiff exists
and a ‘lesser sanction would not better serve the
interests of justice.’” Id. (emphasis added). Finding
that neither a clear record of delay nor contumacious
conduct existed on the record before it, the Fifth Circuit
reversed the district court’s dismissal under Rule 4(m).
The same rule of law should be adopted by this
Court and should be applied here. As was true for the
plaintiff in Millan, Collins’ claim here, if re-filed, would
almost certainly be barred by the applicable statute of
limitations. As was also true in Millan, there is no
clear record of delay or evidence of contumacious
conduct by either Collins or her counsel. Indeed, this is
precisely the rule of law followed by in Broome, 2018
WL 3978998 (citing Millan and recognizing constraints
on discretion for Rule 4(m) discretionary extensions
when the statute of limitations will bar future refilings). Given the strong federal policy in favor of
adjudicating cases on their merits, the District Court
and the Fourth Circuit should have applied this
heightened standard as the proper standard of review
for determining whether or not to exercise its discretion
to grant a discretionary extension under Rule 4(m).
Their failure to do so requires this Court to set the
standard.

31
III.

This Case Is An Excellent Vehicle To
Resolve The Questions Presented.

This case presents an excellent vehicle through
which both to resolve the circuit split upon which this
Court previously granted review in Chen and to
articulate the appropriate guidelines and standards for
district courts to use when exercising their discretion
under Rule 4(m).
First, the circuit split caused by Mendez is squarely
at issue. The District Court expressly relied on Mendez
in denying Collins relief and the Fourth Circuit
affirmed the District Court’s erroneous rulings without
ever addressing the equitable factors – and limits on
discretion – that the District Court should have
considered, see Millan, supra, when exercising its
discretion under Rule 4(m). Collins also squarely
presented this issue to the Fourth Circuit for en banc
review, but the court of appeals rejected the invitation
to correct its erroneous jurisprudence.
Second, the facts of this case clearly show that
application of the wrong legal standards in this case
was outcome-determinative. Collins did not engage in
a clear record of delay or contumacious conduct. Nor
did she blithely ignore her service deadline. Quite to
the contrary, Collins tried to effect service within her
90-day service deadline – twice with requests for
Waivers of Service and then, an attempt at personal
service on the 90th day – and then moved, pre-deadline,
for an extension of time. And she did so even while
confronting an unexpected family emergency. These
facts would clearly suffice to require an extension
under the constrained discretion recognized in Broome

32
or the factors applied in Millan. In either event, if
Collins had been in a federal court governed by those
standards, her case would not have been dismissed.
CONCLUSION
A district court in the Fourth Circuit rightly
observed that when this Court dismissed the writ of
certiorari in Chen, “[a] rare opportunity to clarify an
important issue and address a split in the circuits has
surely been missed.” Harris v. South Charlotte PreOwned Auto Warehouse, LLC, 2015 WL 1893839 at *4
(W.D.N.C. April 27, 2015). We respectfully submit that
this Court should not miss this rare opportunity again.
The petition for certiorari should be granted.
Respectfully submitted,
RICHARD F. HAWKINS, III
Counsel of Record
THE HAWKINS LAW FIRM, PC
2222 Monument Ave.
Richmond, VA 23220
(804) 308-3040 (telephone)
(804) 308-3132 (fax)
rhawkins@thehawkinslawfirm.net
Counsel for Petitioner

